                     Closeout of M90040018
                    d with a letter to OIG


                      -   -


research misconduct. It was brought about by the-attitude of one
professor, who was a recipient of NSF grants
0and                            and one
Specifically, the complainant, who was working on his doctoratle and
had finished all requirements for the degree except for
dissertation, alleged that a graduate student "began to exhibit
unprovoked and unnecessary aggression toward me, including
tampering with my experiments at least three timesv.
                               was working as a graduate assistant to
                              , the subject, who took over the position
vacated by the complainant's former thesis adviser who had died.
The complainant            under the subject for three years
experimenting on a p b y monitoring                  >n   a period
of one to two years) as his Ph.D thesis. The complainant alleged
that when his experiments on           were destroyed by another
graduate assistant of the subject, the subject did not do anything
about it. Because of all these events, the complainant believed
that he acquired    manic depressi~n~~ and "acute anxietym.     He
further wrote: "the major source of this anxiety was the way I was
being treated by this professor and his student and the resulting
damage to mev.
OIG contacted (aftermany attempts) and talked with the complainant
to get more information about this allegation. OIG asked the
complainant to comment on the following specific questions:
1. Is there anyone who can support the complainant's story?

2. Could the complainant provide OIG with names of witnesses who
actually have seen the incidents and who can verify the exact dates
and places of the incidents?
The complainant promised OIG that he would write or call soon to
answer these questions. However, four months have passed and the
complainant has made no effort to communicate with OIG.
Under the circumstances, due to lack of information and our limited
resources, OIG has decided to close
                                                              d           ?
CC:   Inspector General (IG)
      Assistant IG for Oversight
